No. 20-1606
IN THE

Supreme Court of tf ) e Mmteb States;
BRETT HENDRICKSON ,

Petitioner ,

v.

AFSCME COUNCIL 18, ETAL.,

Respondents .

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit

CERTIFICATE OF SERVICE

I, SCOTT A. KRONLAND, a member of the Bar of
this Court , pursuant to Supreme Court Rule 29.5(b) ,
hereby certify that on September 24, 2021, three cop ies of the the Brief In Opposition of Respondent
AFSCME Council 18 in Hendrickson v. AFSCME
Council 18, et al ., No. 20-1606, were sent , via United
Parcel Service for Next Business Day Delivery , to:
Brian Kirk Kelsey
Liberty Justice Center
208 S. LaSalle St., Ste. 1690
Chicago, IL 60604
bkelsey@libertyjusticecenter.org
Counsel for Petitioner Brett Hendrickson

Lawrence M Marcus
Park & Associates, L.L.C.
3840 Masthead Street N. E .
Albuquerque , NM 87107
lm arcus@parklawnm.com
Counsel for Respondents Michelle Lujan Grisham,
Hector Balderas

An electronic copy of this document was also
served on September 24, 2021 to these e - mail addresses:
bkelsey@libertyjusticecenter.org
lmarcus@parklawnm .com

I further certify that all parties required to be
served have been served.
Dated: September 24, 2021

Scott A. Kronland
ALTSHULER BERZON LLP
177 Post Street , Suite 300
San Francisco, CA 94108
(415) 421- 7151
skronland@altber.com
Counsel for Respondent
AFSCME Council 18

